OIG Investigative Reports, New York, NY., November 08, 2011 - Former College Vice President Sentenced for Embezzling $850,000
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
UNITED STATES ATTORNEY'S OFFICE
Southern District of New York
U.S. ATTORNEY PREET BHARARA
FOR IMMEDIATE RELEASE
Tuesday, November 8,, 2011
http://www.justice.gov/usao/nys
CONTACT:    U.S. ATTORNEYS OFFICE
Ellen Davis,, Jerika Richardson,
Carly Sullivan
(212) 637-2600
FORMER IONA COLLEGE VICE PRESIDENT OF FINANCE SENTENCED IN MANHATTAN FEDERAL COURT
Preet Bharara, the United States Attorney for the Southern District of New York, announced that MARIE E. THORNTON, the former Vice President of Finance for Iona College, was sentenced today in Manhattan federal court to time served and three years of supervised release with 2,000 hours of community service for embezzling more than $850,000 from the college. THORNTON pled guilty to one count of embezzlement on March 9, 2011. U.S. District Judge Kimba M. Wood imposed today's sentence.
According to the Information and statements made in Manhattan federal court:
From 1999 up to May 2009, THORNTON caused more than $850,000 belonging to Iona College to be diverted to her personal use by, among other things, submitting false vendor invoices for reimbursement to Iona College and submitting credit card bills for personal expenses to be paid by Iona College.
* * *
THORNTON, 63, of Philadelphia, Pennsylvania, was also ordered to pay $350,000 in restitution and a $100 special assessment fee.
Mr. Bharara praised the efforts and the assistance of the U.S. Department of Education, Office of the Inspector General.
The case is being prosecuted by the Office's Public Corruption Unit. Assistant United States Attorney Carrie H. Cohen is in charge of the prosecution.
11-338
###
Top
Printable view
Last Modified: 11/21/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov